ES, IG-99-020, NASA Control of Export-Controlled Technologies
NASA CONTROL OF EXPORT-CONTROLLED TECHNOLOGIES
IG-99-020
Executive Summary
Background
The threat to NASA's technological information is continually increasing as
foreign entities seek to gain technological and economic advantages.  While
the National Aeronautics and Space Act of 1958 (the Space Act) promotes the
sharing of information to the greatest practical extent, it also seeks to
preserve the preeminent position of the United States in aeronautics and
space.  Moreover, the obligation to protect export-controlled technologies
from unauthorized disclosure is found not only in policy statements, such as
those in the Space Act, but also in statutes such as the Trade Secrets Act
and the export control laws (see Appendix B) that have strict criminal,
civil, and administrative penalties.  In 1995, NASA established an Export
Control Program.  The program consists of a NASA-wide system established to
ensure that exports(1) to foreign parties in international activities are
consistent with the U.S. Export Administration Regulations (the Export
Regulations) and the International Traffic in Arms Regulations (the Arms
Regulations).
Objective
Our overall objective was to evaluate NASA's control of export-controlled
technologies.  Specifically, we determined whether NASA identified all
export-controlled technologies related to the Space Station, Space Shuttle,
and other major programs and established adequate controls over
export-controlled technologies to preclude unauthorized or unlicensed
transfers.  Appendix A contains additional details on our objectives,
scope, and methodology.
Results of Audit
NASA has not identified all export-controlled technologies related to its
major programs and does not maintain a catalog of classifications for
transfers of export-controlled technologies (see Finding A).  Also, Agency
oversight of and training for personnel in the Export Control Program (the
Program) need improvement.  Specifically, annual audits of each Center's (2)
export control system were not adequately performed (see Finding B) and NASA
personnel lack training in controlling and documenting export-controlled
technologies (see Finding C).  As a result, NASA may not have adequate
control over export-controlled technologies to preclude unauthorized or
unlicensed transfers.
Revised Recommendation
In response to management's comments on a draft of this report, we revised
the recommendation to state that NASA should develop a cataloging process
for export-controlled technologies, whereas the draft recommendation showed
that NASA should maintain an inventory for all sensitive technologies.
Recommendations
The Office of External Relations should develop policies and procedures to
ensure that all export-controlled technologies are identified and protected,
only qualified personnel perform export control audits, and NASA employees
involved directly or indirectly with technology are trained in classifying
and protecting export-controlled technologies.  In particular, the Associate
Administrator for External Relations should:
Establish policy and procedures for a cataloging process of
controlled technology export classifications that would be available
for all NASA Installations.
Define qualifications of personnel who perform Export Control
Program audits.
Designate only qualified personnel to perform the annual audits of
the Export Control Program, in accordance with established policy.
Establish policy for resolving and following up on recommendations
resulting from export control audits.
Enhance the current export control training program for NASA
personnel, to include training in U.S. export laws and regulations and
in procedures for classifying and documenting exports.
Expand training on a recurring basis to NASA employees involved
directly or indirectly with technology control.
Management's Response
Management concurred with the revised recommendations and stated it was
taking action to correct the reported weaknesses.  Management plans to
develop a catalog of classifications for specific exports, improve training
and guidance for Export Control Program auditors, and enhance and strengthen
training for NASA employees involved directly or indirectly with technology
control.
Evaluation of Management's Response
Management's planned actions are responsive to all of the recommendations.
FOOTNOTES
1. Exports are transfers of any commodities, software, or technologies to foreign entities.
2. Of the three Centers' (Johnson Space Center, Glenn Research Center, and Marshall Space Flight Center) annual export control audits that we reviewed, Marshall Space Flight Center showed greater attention to fulfilling the Program requirements.